No. 19-980
IN THE

Supreme Court of the United States
_________
ARIANA M.,

Petitioner,
v.
HUMANA HEALTH PLAN OF TEXAS, INC.,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Fifth Circuit
_________
BRIEF IN OPPOSITION
_________
CARLOS R. SOLTERO
SOLTERO SAPIRE MURRELL
PLLC
7320 N. MoPac Expy.
Suite 309
Austin, TX 78731
RACHAEL K. PADGETT
MITCHELL ║ WILLIAMS
500 W. 5th St., Suite 1150
Austin, TX 78701
May 15, 2020

BENJAMIN BEATON
Counsel of Record
SCOTT W. COYLE
G. LUKE BURTON
SQUIRE PATTON BOGGS
(US) LLP
221 E. Fourth St.
Suite 1900
Cincinnati, OH 45202
(513) 361-1200
benjamin.beaton@squirepb.com
Counsel for Respondent

QUESTION PRESENTED
Whether the Fifth Circuit properly affirmed the
denial of Petitioner’s request for attorney’s fees under
29 U.S.C. § 1132(g)(1) after the district court,
exercising its statutory discretion, determined that
Petitioner failed to achieve “some success on the
merits” of her ERISA claim against Respondent.

ii

TABLE OF CONTENTS
QUESTION PRESENTED..........................................i
INTRODUCTION ....................................................... 1
STATEMENT OF THE CASE ................................... 2
A.

Legal Background ................................ 2

B.

Petitioner’s Claims................................ 6

REASONS TO DENY THE PETITION .................. 15
I.

The Nascent Split Alleged by Petitioner
Is Illusory Because the Decision Below
Does Not Conflict with the First
Circuit’s Decision in Gross ............................ 15
A.

The Plaintiff in Gross
Successfully Challenged the Plan
Administrator’s Initial Benefits
Determination ..................................... 16

B.

Petitioner Did Not Achieve Any
Success in Challenging Humana’s
Initial Benefits Determination ........... 19

II.

Petitioner Fails to Demonstrate Any
“Confusion” in the Lower Courts’
Application of Hardt ...................................... 22

III.

This Case Is a Poor Vehicle ........................... 25

IV.

Petitioner’s Request for Attorney’s Fees
Was Properly Denied ..................................... 28

CONCLUSION ......................................................... 30

iii

TABLE OF AUTHORITIES
Page(s)
Cases
Ballard v. Burton,
444 F.3d 391 (5th Cir. 2006) ............................. 26
Dickens v. Aetna Life Ins. Co.,
No. 2:10-cv-00088, 2011 U.S. Dist.
LEXIS 32595 (S.D. W.Va. Mar. 28, 2011) ........ 25
Dwinnel v. Fed. Express Long Term
Disability Plan,
No. 3:14-cv-01439, 2017 U.S. Dist.
LEXIS 57828 (D. Conn. Apr. 14, 2017) ............ 24
Flom v. Holly Corp.,
276 F. App’x 615 (9th Cir. 2008)....................... 23
Gross v. Sun Life Assurance Co.,
734 F.3d 1 (1st Cir. 2013) ........................... 17, 18
Gross v. Sun Life Assurance Co.,
763 F.3d 73 (1st Cir. 2014) ........................passim
Hardt v. Reliance Standard Life Ins. Co.,
560 U.S. 242 (2010) ....................................passim
Koehler v. Aetna Health, Inc.,
915 F. Supp. 2d 789 (N.D. Tex. 2013) .............. 24
McKay v. Reliance Standard Ins. Co.,
428 F. App’x 537 (6th Cir. 2011)....................... 24
Pierre v. Conn. Gen. Life. Ins. Co.,
932 F.2d 1552 (5th Cir. 1991) ................. 9, 10, 11

iv

Ruckelshaus v. Sierra Club,
463 U.S. 680 (1983) ....................................passim
Vega v. Nat’l Life Ins. Servs. Co.,
188 F.3d 287 (5th Cir. 1999) ............................. 27
Yates v. Bechtel Jacobs Co.,
No. 3:09-CV-51, 2011 U.S. Dist. LEXIS
66820 (E.D. Tenn. May 5, 2011) ....................... 24
Statutes
29 U.S.C. § 1132(g)(1)......................................passim
29 U.S.C. § 1132(g)(2)......................................... 2, 28

1
INTRODUCTION
To be eligible for an award of attorney’s fees under
ERISA’s fee-shifting provision, 29 U.S.C. § 1132(g)(1),
a party must demonstrate that she has achieved at
least “some degree of success on the merits” of her
claims. Hardt v. Reliance Standard Life Ins. Co., 560
U.S. 242, 255 (2010). In an unpublished opinion, the
Fifth Circuit affirmed the district court’s
discretionary decision that Petitioner did not satisfy
that standard in this case: she failed to demonstrate
that Humana’s review of her claims was procedurally
deficient in any way, and her substantive claims for
benefits did not survive summary judgment. No basis
existed, under this Court’s precedent, to force
Humana to pay her attorney’s fees: “Put simply,
ordinary conceptions of just returns reject the idea
that a party who wrongly charges someone with
violations of the law should be able to force that
defendant to pay the costs of the wholly unsuccessful
suit against it.” Ruckelshaus v. Sierra Club, 463 U.S.
680, 685 (1983).
Petitioner argues this Court’s review is necessary
because the decision below “conflicts” with the First
Circuit’s decision in Gross v. Sun Life Assurance Co.,
763 F.3d 73 (1st Cir. 2014). But no “split” exists. The
First Circuit exercised its discretion to award
attorney’s fees in that case because the plaintiff
successfully challenged the plan administrator’s
initial review of her benefits claim, and obtained a
remand to the plan administrator under a less
deferential standard of review. In this case, by
contrast, Petitioner did not obtain a remand to the
plan administrator, nor did she successfully identify
any deficiency in Humana’s initial benefits
determination (which the Fifth Circuit affirmed). The
“success on the merits” identified by the First Circuit

2
in Gross is thus absent in this case, as the Fifth
Circuit expressly recognized in its own opinion.
Even if there were a conflict, this case would present
a particularly poor vehicle for resolving it. The
unpublished decision below is fact-bound and does not
bind any future panel or district judge in the Fifth
Circuit (let alone any court outside that circuit). It
therefore serves as no obstacle to future claimants.
The purported split is shallow and recent, consisting
solely of one 2014 decision in the First Circuit and the
decision below. The issue has not matured in the
lower courts, which have yet to acknowledge—much
less address—any tension between the two decisions.
And as the Fifth Circuit recognized, any procedural
“success” claimed by Petitioner in challenging
outdated precedent on the standard of review had no
effect on the merits of Petitioner’s claims, particularly
given the lack of a developed administrative record.
Accordingly, the Court should deny this split-less,
fact-bound petition. If any confusion or conflict
develops in the lower courts, which is unlikely, this
Court will doubtless confront better vehicles to resolve
it.
STATEMENT OF THE CASE
A. Legal Background
The statutory provision at issue, 29 U.S.C.
§ 1132(g)(1), provides that a court, “in its discretion,”
“may allow a reasonable attorney’s fee and costs of
action to either party” in an ERISA action brought “by
a participant, beneficiary, or fiduciary.” As Petitioner
concedes (at Pet. 2), an award of attorney’s fees under
§ 1132(g)(1) is discretionary.
The immediatelysucceeding provision, by contrast, requires a fee award
in certain actions brought by an ERISA fiduciary. See
29 U.S.C. § 1132(g)(2) (the court “shall award”

3
attorney’s fees to an ERISA fiduciary who obtains “a
judgment in favor of the plan” in an employercontribution action).
1. This Court addressed the standards applicable
to a discretionary award of attorney’s fees under
§ 1132(g)(1) in Hardt v. Reliance Standard Life
Insurance Co., 560 U.S. 242 (2010).
The plaintiff in Hardt secured an order remanding
her claims to the benefits plan administrator for
reconsideration.
The administrator had ignored
“compelling evidence” in the record that plaintiff was
totally disabled (and thus eligible for benefits). Id. at
248. The district court warned that, if the defendantadministrator failed to “adequately consider all the
evidence” within 30 days, “judgment will be issued in
favor of Ms. Hardt.” Id. The defendant-administrator
reevaluated plaintiff’s claim, ultimately reversing its
decision and paying plaintiff $52,250 in past-due
benefits. Id. at 249.
The question presented in Hardt was whether
plaintiff’s success in forcing the plan administrator to
reevaluate her claim was sufficient to warrant a
discretionary award of attorney’s fees under
§ 1132(g)(1), even though the court itself had not ruled
on the merits of the claim. This Court held that it was,
under the circumstances, because plaintiff had
achieved at least “some success” on the merits of her
claim. Id. at 252–56. As the Court noted, plaintiff
“persuaded the District Court to find that ‘the plan
administrator has failed to comply with the ERISA
guidelines,’” and secured an order requiring the
administrator to conduct a “full and fair review” of her
claims on remand. Id. at 255–56. “These facts
establish that Hardt has achieved far more than
‘trivial success on the merits’ or a ‘purely procedural

4
victory,’” and thus supported a discretionary award
under § 1132(g)(1). Id. at 256.
In so holding, this Court rejected defendant’s
contention that fees were available only to “prevailing
parties,” i.e., parties that obtained “an enforceable
judgment on the merits” or a “court-ordered consent
decree.” Id. at 250–52. As the Court explained, the
plain language of § 1132(g)(1) does not limit fee
awards to prevailing parties, but rather “expressly
grants district courts ‘discretion’ to award attorney’s
fees ‘to either party.’” Id. at 251–52; see also id. at 252
(contrasting § 1132(g)(1)’s discretionary language
with the mandatory language of the neighboring
provision).
At the same time, however, this Court emphasized
that the discretion conferred by § 1132(g)(1) is not
unlimited. Rather, the “bedrock principle” when
considering a request for statutory attorney’s fees is
the so-called “‘American Rule’: Each litigant pays his
own attorney’s fees, win or lose, unless a statute or
contract provides otherwise.” Id. at 252–53.
Although the plain language of § 1132(g)(1) did not
limit fee awards to “prevailing parties,” Congress also
“failed to indicate clearly in § 1132(g)(1) that it meant
to abandon historic fee-shifting principles and
intuitive notions of fairness.”
Id. at 255.
“Accordingly,” this Court held that “a fees claimant
must show ‘some degree of success on the merits’
before a court may award attorney’s fees under
§ 1132(g)(1).” Id. “‘[T]rivial success on the merits’ or
a ‘purely procedural victory’” does not satisfy this
standard. Id. Rather, fees may be awarded only if
“the court can fairly call the outcome of the litigation
some success on the merits without conducting a
lengthy inquiry into the question whether a particular

5
party’s success was ‘substantial’ or occurred on a
‘central issue.’” Id. (emphasis added).
2. Hardt adopted the “some success on the merits”
standard from this Court’s prior decision in
Ruckelshaus v. Sierra Club, 463 U.S. 680 (1983),
which addressed a similar fee-shifting provision in the
Clean Air Act. See Hardt, 560 U.S. at 254 (applying
“the interpretive approach we employed in
Ruckelshaus to § 1132(g)(1)”).
Like Hardt, the statute at issue in Ruckelshaus did
not limit the award of attorney’s fees to “prevailing
parties,” but rather permitted the court to award fees
when “appropriate.”
463 U.S. at 681–82, 688.
Latching onto that language, the D.C. Circuit
awarded attorney’s fees to two environmental
organizations that unsuccessfully challenged the
EPA’s emission standards for coal-burning power
plants. Id. at 681–82. The court based its award on
plaintiff’s “contributions” to the “goals” of the Clean
Air Act, even though it had rejected each of plaintiffs’
substantive claims on the merits. Id.
This Court reversed, holding that the statute did not
permit an award of attorney’s fees “absent some
degree of success on the merits by the claimant.” Id.
at 694. Although the Court agreed with plaintiffs that
Congress intended to “expand the class of parties
eligible for fee awards” beyond just “prevailing
parties,” the Court explained that the statutory
language still must be “read in light of the historic
principles of fee-shifting in this and other countries.”
Id. at 681–82, 688.
That
precedent
“reflect[s]
one
consistent,
established rule: a successful party need not pay its
unsuccessful adversary’s fees.” Id. at 685. “The
uniform acceptance of this rule reflects, at least in
part, intuitive notions of fairness to litigants. Put

6
simply, ordinary conceptions of just returns reject the
idea that a party who wrongly charges someone with
violations of the law should be able to force that
defendant to pay the costs of the wholly unsuccessful
suit against it.” Id.
***
Hardt and Ruckelshaus “la[y] down the proper
markers to guide a court in exercising the discretion
that § 1132(g)(1) grants.” Hardt, 560 U.S. at 255. A
court may award attorney’s fees under § 1132(g)(1) if
the claimant achieved at least “some degree of success
on the merits” of its claims against the defendant. Id.
at 255–56 (emphasis added). But fees are not
available if the party obtained only “trivial success on
the merits” or a “purely procedural victory.” Id. at 256.
The defendant’s “reward” for successfully “refuting
each charge against it” cannot be “a second lawyer’s
bill—this one payable to those who wrongly accused it
of violating the law.” Ruckelshaus, 463 U.S. at 692.
B. Petitioner’s Claims
The fee request at issue in this case arises from
Petitioner’s unsuccessful challenge to an ERISA
benefits determination made by Respondent Humana
Health Plan of Texas.
As described below, both the district court and the
Fifth Circuit have twice determined that Petitioner’s
claims fail on the merits, as the services requested by
Petitioner were not “medically necessary” and
Humana fully complied with ERISA’s procedural
requirements.
Petitioner nonetheless sought
attorney’s fees under § 1132(g)(1), arguing that an
interlocutory ruling on the standard of judicial review
that applies to ERISA benefits determinations
constituted “some success on the merits” under Hardt.
Because that ruling was unrelated to the merits of

7
Petitioner’s ERISA claims and did not affect the
outcome of this case, the Fifth Circuit properly
affirmed the district court’s discretionary decision to
deny attorney’s fees.
1. During the period at issue in this case,
Petitioner Ariana M. was a minor eligible for benefits
under her father’s group health plan. Pet. App. 8a.
Respondent Humana administered the plan. Ibid.
In 2013, Petitioner sought treatment for an eating
disorder.
Id. at 16a.
She entered “partial
hospitalization” at an out-of-state residential
treatment center in Utah, meaning that she boarded
there seven days a week but spent some extended
weekends at home in Texas. Ibid. Petitioner was to
be supervised a minimum of five hours a day, and
participated in group therapy sessions and guided
activities with other patients. Id. at 17a. The
treatment center “estimat[ed] that her treatment
would take 30 days.” Ibid.
Under the terms of the plan, Petitioner was eligible
for partial hospitalization or treatment at a
residential center for children and adolescents so long
as such services were “medically necessary,” up to a
maximum of 90 days. Pet. App. 9a–11a. Humana
used a set of clinical criteria, known as the “Mihalik
factors,” “to assess the medical necessity of partial
hospitalization in treating mental illness.” Id. at 12a.
Humana initially agreed to cover nine days of partial
hospitalization based on those factors, but Petitioner
requested several extensions.
Id. at 18a–23a.
Humana afforded Petitioner an administrative
appeals process and ultimately agreed to cover partial
hospitalization at the residential treatment center in
Utah from April 14 to June 4, 2013, a total of 49 days.
Id. at 27a.

8
2. On June 4, 2013, Humana reviewed an
additional extension request and determined that
partial hospitalization was no longer medically
necessary. Pet. App. 23a–24a. An independent
medical reviewer concurred in that assessment. Id. at
25a–27a.
As part of its own review process, Humana first
submitted the claim to a board-certified psychiatrist,
Dr. Prabhu, who reviewed the medical record and
spoke with Petitioner’s treating physician. Id. at 23a–
24a.
Dr. Prabhu concluded that partial
hospitalization was no longer medically necessary
because Petitioner had returned to her “baseline
behaviors,” “did not appear to be an imminent danger
to herself or others,” and “was not progressing in
treatment” at the residential center. Id. at 24a. He
also noted that several outpatient providers
“specializing in eating disorder treatment” were
available “near [Petitioner’s] home.” Ibid. On that
basis, Humana denied Petitioner’s claim to extend
partial hospitalization “because her risk of relapse
behaviors could be treated at the next level of care, an
intensive outpatient program.” Ibid.
Humana’s decision was appealed through the
administrative appeals process contained in the policy,
which required an independent review of the claim.
Id. at 19a, 24a. Humana submitted the claim to an
independent third party, Advanced Medical Reviews.
Id. at 24a. Another board-certified psychiatrist, Dr.
Hartman, examined the record and spoke with
Petitioner’s treating physician. Id. at 24a–25a. Dr.
Hartman “walked through each Mihalik criterion”
and concluded that partial hospitalization was no
longer medically necessary because, inter alia,
Petitioner “[was] not a danger to self or others,” she
“[was] medically stable,” and her treatment plan was
“not appropriate to [her] condition.” Id. at 25a–27a.

9
Based on Dr. Hartman’s independent evaluation,
Humana denied Petitioner’s administrative appeal on
June 12, 2013. Pet. App. 27a. Despite that decision,
Petitioner elected not to enter outpatient treatment
and remained at the residential treatment center
until September 18, another 106 days. Ibid.
3. More than a year after she left the residential
treatment center in Utah, Petitioner sued Humana
under ERISA. Pet. App. 27a. Petitioner alleged that
Humana wrongfully denied coverage for the
additional 106 days she spent in partial
hospitalization. Id. at 27a–28a.
Shortly after filing the complaint, Petitioner filed a
“motion to determine standard of review.” See ECF
No. 13, Ariana M. v. Humana Health Plan, No. 4:14cv-03206 (S.D. Tex. Feb. 12, 2015). Petitioner argued
that Texas law banned insurers from relying upon
“discretionary clauses” in health insurance policies,
which conferred discretion on the plan administrators
to make coverage determinations and typically
triggered “arbitrary or capricious” review in court. In
the absence of such a clause, Petitioner argued that de
novo review applied to ERISA benefits determinations.
In response, Humana disclaimed any reliance on
“discretionary clause” language in its policy, and
“consent[ed] to a de novo standard of review for
purposes of this case.” See ECF No. 19 at 2. At that
time, binding Fifth Circuit precedent provided that a
court conducting “de novo review” of an ERISA
benefits determination reviewed the administrator’s
construction of plan terms de novo, and its factual
determinations for abuse of discretion. Id. at 2–3; see
also Pet. App. 98a; Pierre v. Conn. Gen. Life. Ins. Co.,
932 F.2d 1552 (5th Cir. 1991). Based on Humana’s
“consent,” the district court granted Petitioner’s

10
motion and agreed to apply “de novo review” under
Pierre. See ECF No. 20 at 1-2.
In December 2015, Humana moved for summary
judgment on Petitioner’s claims, arguing that the
denial of coverage “was reasonable and based on
substantial evidence,” and that it fully complied with
ERISA’s procedural requirements. See ECF No. 39 at
1. Notably, Humana expressly argued that its
benefits decision should be affirmed even under a pure
de novo standard (i.e., “even if its factual
determinations [were also] reviewed . . . de novo”),
because the record was “replete with evidence that
Plaintiff was at a place in her treatment where a lessintensive treatment option was appropriate” and
continued partial hospitalization was “not medically
necessary.” Id. at 18.
The district court granted Humana’s motion for
summary judgment, holding that Humana fully
complied with ERISA’s procedural requirements and
that the administrative record supported Humana’s
benefits determination. See ECF No. 52 at 8–14. The
court expressly noted that both board-certified
psychiatrists who had reviewed Petitioner’s medical
files had found that she “failed to meet several
prerequisites” for continued partial hospitalization
under the plan. Id. at 12.
4. Petitioner appealed the district court’s ruling to
the Fifth Circuit, which affirmed the entry of
summary judgment in Humana’s favor. See Pet. App.
96a–112a. The court held that Humana properly
applied the “Mihalik criteria” to determine medical
necessity, and that substantial evidence in the record
supported its determination that “continued partial
hospitalization was not medically necessary” because
“Plaintiff could be treated with a less costly, equally
effective outpatient treatment.” Id. at 108a–112a.

11
In a special concurrence, all three panel members
noted that the court’s precedent on the standard of
review applicable to ERISA benefits determinations
had become outdated. See Pet. App. 113a–118a. Since
the Fifth Circuit’s early decision in Pierre, every other
circuit to address the issue had concluded that de novo
review applied to both legal and factual
determinations. Id. at 114a. Although the panel (as
well as the district court and the parties) remained
bound by Pierre, the panel suggested this “lopsided
split . . . crie[d] out for resolution.” Id. at 118a.
The full court heeded the panel’s invitation and
granted en banc review to “reconsider” its prior
decision in Pierre. Pet. App. 49a–94a. Noting the
unanimous view of the other circuits, the en banc
court abandoned its “bifurcated standard of review”
for ERISA benefits determinations and held that de
novo review also applies “when the denial is based on
a factual determination.” Id. at 63a, 66a. Far from
representing a “ground-breaking decision” (Pet. 4),
the en banc court simply aligned Fifth Circuit
precedent with that of every other circuit. Pet. App.
50a–51a, 56a–66a.
The en banc court did not rest its ruling on any
purported error made by Humana or the district court.
Nor did it indicate the outcome would likely differ
under the prevailing standard of review. To the
contrary, the en banc court made clear that it
expressed “no opinion” on the merits of Petitioner’s
ERISA claims: “A different standard of review will
sometimes lead to a different outcome, but there will
also be many cases in which the result would be the
same with deference or without it. We give no opinion
on which is the case here.” Pet. App. 69a.
Judge Elrod’s dissent lamented that remanding the
case to the district court was a “waste of judicial

12
resources.” Id. at 92a. Even under a pure de novo
standard, she and two other judges contended, “there
is no genuine issue of material fact . . . that the plan
administrator did not err in declining to cover
Ariana’s additional partial hospitalization.” Id.
5. On remand, the district court applied the pure
de novo standard and again concluded that
Petitioner’s ERISA claims failed on the merits. See
Pet. App. 7a–45a. As the court explained, the change
in the standard of review did not affect the outcome of
the case because “[a] de novo review of the
administrative record reveals that Ariana M.’s
continued partial hospitalization was not medically
necessary after June 4, 2013, after she had been
covered for 49 days.” Id. at 8a, 46a.
The district court specifically found that, by the time
Humana recommended outpatient care rather than
extended partial hospitalization, Petitioner was
“physically healthy,” her weight was “steady,” and
“[s]he had no acute medical complications from her
disorder” that might warrant partial hospitalization.
Id. at 37a–45a. Humana had also “provided Ariana M.
a full review” of her claims and “followed the
independent reviewers’ recommendations,” even
when doing so resulted in continued partial
hospitalization beyond the original, nine-day term. Id.
at 36a–37a. Based upon its own review of the record,
the district court thus again entered summary
judgment in Humana’s favor. Id. at 46a.
On remand, the district court also denied
Petitioner’s request for a discretionary award of
attorney’s fees under § 1132(g)(1). Id. at 45a–46a.
Following the en banc court’s order, Petitioner filed a
motion seeking over $139,000 in fees for work on the
Fifth Circuit appeal alone. See ECF No. 77 at 8.
Petitioner asserted she was “entitle[d]” to such fees

13
because she obtained a “significant legal victory” in
the Fifth Circuit, “[e]ven though the merits of the
underlying case are not yet determined.” Id. at 3, 7.
The amount requested for the appeal—which included
hourly rates as high as $700 for her counsel (see ECF
77, Ex. 1 at 3–4)—substantially exceeded the amount
of benefits in dispute. See Pet. 17 (acknowledging
amount in dispute is “less than $100,000”). Humana
elected not to seek attorney’s fees from Petitioner,
even though it had prevailed on every claim asserted
in Petitioner’s complaint and § 1132(g)(1) expressly
authorized the court to award fees to “either party.”
Applying this Court’s decision in Hardt, the district
court held that attorney’s fees were not warranted in
this case because Petitioner had not achieved any
success on the merits of her claims against Humana.
Pet. App. 45a–46a. The en banc order itself, the court
noted, expressly declined to address the merits of
Petitioner’s claims. Id. at 45a. And the change in the
standard of review did not strengthen Petitioner’s
claims on the merits, given the court’s conclusion that
she could not “succeed in showing that Humana
denied her benefits owed under her plan” under either
standard. Id. at 45a–46a.
6. Petitioner appealed the district court’s merits
and fee rulings. In an unpublished opinion, the Fifth
Circuit affirmed both rulings. See Pet. App. 1a–6a.
On the merits of Petitioner’s claims, the Fifth
Circuit agreed with the district court that “Humana
did not err in finding that the final 106 days of
Ariana’s partial hospitalization were medically
unnecessary.” Id. at 4a. The district court thus
“correctly entered judgment for Humana.” Ibid.
Petitioner has not sought review of that ruling.
The Fifth Circuit also held the district court did not
abuse its discretion in denying Petitioner’s request for

14
attorney’s fees under § 1132(g)(1). See Pet. App. 4a–
6a. The district court correctly “described and applied
the ‘some success on the merits’ standard from Hardt,”
and determined the remand order was “a procedural
success” rather than “success on the merits of Ariana’s
benefits claim.” Id. at 5a (emphasis added). The en
banc court’s specific statement declining to comment
on the merits of Petitioner’s claims supported the
district court’s analysis. Ibid.
In so holding, the Fifth Circuit expressly
distinguished the First Circuit’s decision in Gross, in
which the court had awarded fees to an ERISA
plaintiff who successfully obtained a remand to the
plan administrator for reconsideration of her claims.
Id. at 5a–6a. In Gross, the Fifth Circuit noted, the
court had specifically “‘faulted’” the plan
administrator for “‘failing to provide its independent
medical consultant with important background about
[plaintiff’s] circumstances’” and “‘disregarding the
consultant’s observation’ that the plaintiff should be
reexamined,”
which
necessitated
further
administrative review. Ibid. (quoting Gross, 763 F.3d
at 76).
In this case, by contrast, “the en banc court passed
no judgment on the process Humana used to evaluate
Ariana’s claim or whether Humana had failed to
provide its independent reviewers with sufficient
evidence.” Pet. App. 6a. “Even if the First Circuit was
correct in finding ‘some success on the merits’ in
Gross,” the court concluded, “Ariana’s case is
distinguishable.” Ibid.
The Fifth Circuit’s unpublished opinion affirming
the denial of Petitioner’s request for discretionary
attorney’s fees is the subject of the Petition.

15
REASONS TO DENY THE PETITION
I.

The Nascent Split Alleged by Petitioner Is
Illusory Because the Decision Below Does
Not Conflict with the First Circuit’s
Decision in Gross.

Both the decision below and the First Circuit’s
decision in Gross reflect straight-forward applications
of this Court’s decisions in Hardt and Ruckelshaus.
The First Circuit awarded attorney’s fees in Gross
because the claimant successfully obtained a remand
to the plan administrator for a “reevaluation” of her
claim, under a less deferential standard of review.
763 F.3d at 77–81. In doing so, the First Circuit
expressly noted (as this Court had in Hardt) that the
“substance of the claim” was “a central concern” in its
decision to remand: the plan administrator had not
“fairly examined” the evidence “during the original
administrative process.” Id. at 78. The court thus
remanded plaintiff’s claims to the administrator for a
second look.
The Fifth Circuit affirmed the denial of attorney’s
fees in this case because, unlike the claimants in
Hardt and Gross, Petitioner did not achieve any
success on the merits of her claims against Humana.
Petitioner did not obtain a remand to the plan
administrator for a reassessment of her claims, nor
did she succeed in demonstrating that Humana had
not fairly evaluated her entitlement to benefits in the
first instance. To the contrary, both the district court
and the Fifth Court panel decisions rejected
Petitioner’s claims on the merits (twice). Petitioner’s
request for attorney’s fees thus mirrored the request
rejected by this Court in Ruckelshaus, in which the
party “who wrongly charges someone with violations
of the law” attempts “to force that defendant to pay

16
the costs of the wholly unsuccessful suit against it.”
Ruckelshaus, 463 U.S. at 685.
Petitioner focuses solely on the disparate results in
these two cases. The Petition asserts that the denial
of fees in this case places the Fifth Circuit “directly at
odds” with the First Circuit, allegedly creating a new
and shallow 1-1 split. Pet. 6. That is wrong. In both
cases the courts carefully evaluated the record,
exercised their statutory discretion, and determined
whether the claimant had achieved at least some
success on the merits of her claims against the
defendant, as this Court instructed in Hardt. Rather
than presenting any “square conflict” (Pet. 5), the
results in these cases reflect harmonious application
of the same legal principles to different factual
circumstances.
A. The Plaintiff in Gross Successfully
Challenged the Plan Administrator’s
Initial Benefits Determination.
In Gross, the First Circuit awarded attorney’s fees
to an ERISA plaintiff who successfully obtained a
remand to the plan administrator for reassessment of
her claim. See 763 F.3d at 80–81. The court
acknowledged that the record of the administrator’s
determination was “inadequate” to allow the court to
make a “full and fair assessment” of whether plaintiff
was ultimately entitled to benefits. Id. at 76. The
court therefore could not meaningfully review
plaintiff’s claim on the merits. Id. But the court held
that a discretionary award of attorney’s fees under
§ 1132(g)(1) was nonetheless appropriate, for two
reasons. See id. at 76–81.
First, the court explained that an order remanding
a claim to the plan administrator for reconsideration
generally constitutes at least “some success on the
merits,” because it reflects the court’s judgment that

17
the plaintiff’s substantive claim is “sufficiently
meritorious that it must be evaluated fairly and fully”
on remand. Id. at 77–78.
Cataloging a line of lower-court decisions applying
Hardt, the First Circuit explained that “a remand to
the plan administrator for review of a claimant’s
entitlement to benefits” is generally “sufficient
success on the merits to establish eligibility for fees”
because it “commonly results from a substantive
review of the evidence – i.e., the court considers the
merits of the case and reaches its conclusion on that
basis.” Id. at 77–78 (collecting cases). Courts thus
generally “treat such a remand as sufficient ‘success’
under Hardt based on the two positive outcomes
inherent in such an order: (1) a finding that the
administrative assessment of the claim was in some
way deficient, and (2) the plaintiff’s renewed
opportunity to obtain benefits or compensation.” Id.
at 78.
Such was the case in Gross itself. The court held
that the plan administrator’s initial assessment of
plaintiff’s claim was deficient, “fault[ing]” the
defendant “for failing to provide its independent
medical consultant with important background about
Gross’s circumstances” and “[relying] on medical
judgments it knew were reached with incomplete
information.” Id. at 76, 83. These issues, the court
noted, raised “a legitimate question” about whether
the plan administrator had made a “bona fide effort”
to determine plaintiff’s eligibility for benefits. Id. at
76; see also Gross v. Sun Life Assurance Co., 734 F.3d
1, 22 (1st Cir. 2013) (addressing the merits of
plaintiff’s claims, prior to her fee request).
The plaintiff had also presented “sufficient medical
evidence that, if credited, is adequate to prove her
entitlement to disability benefits.” 763 F.3d at 78. On

18
that basis, the court remanded plaintiff’s claims with
instructions to “render a new decision that includes
reconsideration of . . . evidence that was not fairly
examined during the original administrative process.”
Id. The “substance” of plaintiff’s claims, the First
Circuit noted, was thus “a central concern” in its
remand order. Id.
Second, the First Circuit explained that it did not
have to rely on the remand order, “without more,” to
justify a fee award under Hardt because plaintiff had
obtained “more than merely a second chance for ‘a full
and fair review’ of her claim by the plan
administrator.”
Id. at 79.
Plaintiff had also
successfully challenged defendant’s interpretation of
a discretionary clause in the insurance policy, which
defendant had previously used to “insulat[e]” its
benefits determinations from “full judicial review.” Id.
During the proceedings below, defendant had relied
on specific policy language (requiring “proof of
disability ‘satisfactory to us’”) to argue that the plan
conferred
“discretionary
authority”
on
the
administrator to determine eligibility for benefits. See
Gross, 734 F.3d at 4, 11–12. If a plan confers such
“discretionary authority” on an administrator, then
courts in the First Circuit apply “a deferential
‘arbitrary and capricious’ or ‘abuse of discretion’
standard” to benefits determinations made by the
administrator. Id. at 11.
The plaintiff challenged defendant’s interpretation
of the policy language on appeal, arguing that the
“satisfactory to us” language did not confer
discretionary authority on the defendant (and thus
did not trigger deferential review in the courts). 763
F.3d at 75. The First Circuit agreed, holding that the
policy language was “inadequate to confer the

19
discretionary authority that would trigger deferential
review of the insurer’s benefits decision.” Id.
That ruling, the court explained, constituted at least
“some success” on the merits of plaintiff’s claims
because it “altered the dynamic between [the parties]
in the subsequent proceedings” on remand. Id. at 79.
By removing the security blanket of the discretionary
clause, plaintiff forced the defendant to make a
decision on remand that “will no longer be insulated
from full judicial review.” Id.
Applying Hardt, the First Circuit concluded that
this “combination” of the remand to the plan
administrator and less deferential standard of review
under the policy constituted at least “some success” on
the merits: “As we have explained, the remand for
reconsideration of her entitlement to benefits, in
combination with a less deferential standard of review,
means that Gross already has achieved the success
that makes her eligible for fees.” Id. at 81.
B. Petitioner Did Not Achieve Any Success
in Challenging Humana’s Initial Benefits
Determination.
As the Fifth Circuit recognized in the decision below,
the denial of Petitioner’s request for attorney’s fees in
this case does not “conflict” with Gross because
Petitioner did not achieve any success on the merits of
her claim against Humana. Pet. App. 5a–6a. Both
courts faithfully followed the same “some success on
the merits” standard drawn from this Court’s decision
in Hardt, but they applied that principle in much
different circumstances. As explained below, those
case-specific
circumstances—rather
than
any
difference in the legal standard or rule of decision—
account for the differing outcomes in the two cases.

20
Unlike the plaintiff in Gross, Petitioner did not
achieve either type of “success” described in the First
Circuit’s opinion. Petitioner did not obtain a remand
to the plan administrator for reconsideration of her
claim, nor did she successfully demonstrate that
Humana failed to properly consider all of the evidence
in the first instance. Accordingly, neither of the “two
positive outcomes inherent in” the remand order at
issue in Gross is present in this case. See Gross, 763
F.3d at 78.
And unlike the defendant in Gross, Humana did not
rely on the language of a discretionary clause to resist
“full judicial review” of its benefit determination. To
the contrary, Humana disclaimed any reliance on a
discretionary clause at the beginning of the case, and
consistently argued that its benefit determination
should be affirmed on summary judgment under any
standard. See ECF No. 19 at 2; ECF No. 39 at 18–20.
The Fifth Circuit’s subsequent decision to align its
precedent on the standard of review with that of the
other circuits therefore did not “alter the dynamic
between the parties,” as Humana had consistently
(and correctly) argued that Petitioner’s claims failed
even under a de novo standard. Cf. Gross, 763 F.3d at
79. Both the district court and the Fifth Circuit
agreed, rejecting Petitioner’s claims on the merits.
Petitioner attempts to gloss over these distinctions,
asserting the decisions “squarely conflict” because
they both involved “remands” following “favorable
decisions on the standard of review.” Pet. 5–11. That
argument, however, ignores not only the obvious
factual and legal differences described above, but also
the discretionary nature of fee awards under
§ 1132(g)(1).
As the Fifth Circuit emphasized in affirming the
denial of Petitioner’s fee request, the “favorable

21
decision” at issue in this case was unrelated to the
merits of Petitioner’s claims. Pet. App. 5a. In
remanding the case to the district court, the en banc
panel expressed “no opinion” on the merits of the
claims, noting that in “many cases . . . the result would
be the same” under either standard of review. Pet.
App. 5a, 69a; see also Pet. for En Banc Reh’g at 1
(seeking en banc rehearing solely on standard of
review issues). The en banc court also “passed no
judgment on the process Humana used to evaluate
[Petitioner’s] claim or whether Humana had failed to
provide its independent reviewers with sufficient
evidence.” Pet. App. 6a. Instead, the court simply
aligned its own precedent with that of the other
circuits and left “application of the de novo standard
to the able district court in the first instance.” Id. at
69a.
That language stands in stark contrast to the
remand order at issue in Gross, which the First
Circuit acknowledged was inexorably intertwined
with the “substance” of plaintiff’s claims. See Gross,
763 F.3d at 78. The First Circuit remanded plaintiff’s
claims to the administrator only after finding that the
defendant (1) failed to provide independent reviewers
with “important” medical information; (2) “relied on
medical judgments it knew were reached with
incomplete information”; and (3) “insulated” its
decisions from “full judicial review” by relying upon a
discretionary clause, which did not confer the
authority that defendant claimed. Id. at 76, 79, 83.
Far from passing “no judgment” on defendant’s
administrative review process, the remand order in
Gross thus “reflect[ed] the court’s judgment that the
plaintiff’s claim is sufficiently meritorious that it must
be evaluated fairly and fully.” Id. at 78.
In light of the court’s findings, it is not difficult to
understand the First Circuit’s reasons for awarding a

22
discretionary attorney’s fee to plaintiff under
§ 1132(g)(1). The court concluded that plaintiff had
achieved at least “some success” on the merits of her
claims by showing numerous errors in the plan
administrator’s initial benefits determination and
forcing the administrator to provide the “full and fair”
review denied to her in the first instance.
It is equally clear, in the absence of any equivalent
findings, why the Fifth Circuit affirmed the denial of
Petitioner’s request for a discretionary fee award in
this case. Petitioner had not demonstrated any flaws
in Humana’s administrative review process, nor had
she identified any evidence in the record
demonstrating that she was entitled to benefits. See
Pet. App. 5a–6a. Petitioner’s sole “victory” resulted in
a second grant of summary judgment against her on
remand, without any need for further administrative
review of the merits of her claims.
The Fifth Circuit’s decision affirming the district
court’s exercise of discretion in this case does not
conflict with the First Circuit’s discretionary
determination in Gross. Both courts applied the same
principles under Hardt, but they did so under much
different circumstances.
II.

Petitioner Fails to Demonstrate Any
“Confusion” in the Lower Courts’
Application of Hardt.

Petitioner similarly misconstrues the lower courts’
application of Hardt in other ERISA cases. Petitioner
asserts that the Fifth Circuit’s decision “exemplifies
and exacerbates” lingering “confusion” in the lower
courts regarding “what, short of some award of
benefits,” is sufficient to justify an award of attorney’s
fees under Hardt. Pet. 5. As with the purported
circuit “conflict,” however, any such “confusion” is
greatly exaggerated and dissipates quickly when the

23
discretionary nature of a fee award under § 1132(g)(1)
is considered.
As evidence of purported “confusion,” Petitioner
cites five post-Hardt cases generally involving
“remands.”1 See Pet. 9–11. In three of those cases,
the court awarded attorney’s fees against the ERISA
plan administrator. Pet. 10. In the other two cases,
the court did not. Pet. 11. From this, Petitioner
concludes that Hardt “has engendered . . . deep and
abiding [confusion and tension]” in the lower courts,
and that the Fifth Circuit’s decision simply adds to
this “disarray.” Pet. 11.
This characterization of the lower courts’ fee-award
decisions is mistaken. Petitioner operates from the
erroneous premise that all ERISA cases involving a
“remand” are created equal. As the discussion in
Section I above makes clear, however, they are not.
The question in any individual case is not whether the
plaintiff obtained a “remand,” or some other
“favorable decision.” Pet. 7. Rather, as the First
Circuit recognized in Gross, the question is “whether
the particular circumstances of the remand in this
case satisfy the Hardt standard.” 763 F.3d at 77
(emphasis added).
In all three cases cited in the Petition in which the
court awarded fees, plaintiffs obtained either a
remand to the plan administrator for a reassessment
A sixth case, the Ninth Circuit’s unpublished decision in Flom
v. Holly Corp., 276 F. App’x 615 (9th Cir. 2008), pre-dates Hardt,
and thus could not possibly reflect the “confusion and tension
that the Hardt decision has engendered in the lower courts.” Pet.
11. In any event, Flom is consistent with the other cases
discussed above: the court awarded fees because the plaintiff
successfully obtained a remand to the plan administrator, which
reversed its decision and “reinstated Flom’s benefits.” 276 F.
App’x at 617.
1

24
of their claims, or an award of benefits from the
administrator following a successful appeal. See
McKay v. Reliance Standard Ins. Co., 428 F. App’x 537,
547 (6th Cir. 2011) (affirming fee award because
plaintiff “was just like the Hardt claimant in that he
‘persuaded the District Court to find that the plan
administrator … failed to comply with the ERISA
guidelines’ and that, as a result, he ‘did not get the
kind of review to which he was entitled’”); Koehler v.
Aetna Health, Inc., 915 F. Supp. 2d 789, 797 (N.D. Tex.
2013) (awarding attorney’s fees to claimant who
accepted settlement offer from administrator
following Fifth Circuit’s finding that administrator
had “violated ERISA regulations” and acted in “bad
faith”); Dwinnel v. Fed. Express Long Term Disability
Plan, No. 3:14-cv-01439, 2017 U.S. Dist. LEXIS 57828,
at *2–4 (D. Conn. Apr. 14, 2017) (awarding attorney’s
fees following remand to plan administrator to
conduct a sufficient vocational analysis after failing to
do so in the first instance).
In each of these three cases, the court exercised its
discretion to award attorney’s fees under § 1132(g)(1)
after finding that the remand order (or settlement)
constituted at least some success on the merits of
plaintiff’s claims. These cases are thus entirely
consistent with Hardt, which authorized that very
inquiry. See Hardt, 560 U.S. at 245 (holding claimant
must achieve at least “some degree of success on the
merits”).
In the two cases cited in the Petition in which the
court denied attorney’s fees, it did so only
preliminarily, because the court was not yet prepared
to decide whether the particular remand at issue
reflected “some success on the merits” or merely a
“procedural victory.” See Yates v. Bechtel Jacobs Co.,
No. 3:09-CV-51, 2011 U.S. Dist. LEXIS 66820, at *3,
*6 (E.D. Tenn. May 5, 2011) (denying plaintiff’s

25
request for attorney’s fees without prejudice because
the request was “not ripe”); Dickens v. Aetna Life Ins.
Co., No. 2:10-cv-00088, 2011 U.S. Dist. LEXIS 32595,
at *17 (S.D. W.Va. Mar. 28, 2011) (holding attorney’s
fees “are not warranted at this time”).
Rather than indicating the lower courts are
hopelessly confused, these cases illustrate the courts
correctly understand that § 1132(g)(1) renders fee
awards discretionary. That follows directly from
Hardt, and is plainly at odds with Petitioner’s
preferred test.
An ERISA plaintiff is not
automatically entitled to attorney’s fees the minute
she obtains a “remand” (although the Petition
certainly implies as much). Instead, before exercising
its discretion to award fees, the court must carefully
consider whether it “can fairly call the outcome of the
litigation some success on the merits,” as opposed to a
“trivial success on the merits” or a “purely procedural
victory.” Hardt, 560 U.S. at 255.
The decisions cited in the Petition make clear that
the lower courts understand and apply this
requirement. The Petition, with its heavy reliance on
generic, superficial descriptors like “remand” and
“standard of review,” appears to overlook the factbound nature of this inquiry.
III.

This Case Is a Poor Vehicle.

Even if the First and Fifth Circuits were newly
divided on the proper application of this Court’s
decision in Hardt, which they are not, this case would
present a particularly poor vehicle for resolving that
shallowest of conflicts.
As Petitioner concedes, the decision below is
unpublished, and thus “lacks precedential value.” Pet.
1, 6. Although Petitioner claims the decision “will
greatly impact plan participants and beneficiaries

26
throughout the Fifth Circuit and perhaps beyond”
(Pet. 7), the fact remains that the decision below does
not even bind future panels within the Fifth Circuit—
let alone any court “beyond” the Fifth Circuit. See
Ballard v. Burton, 444 F.3d 391, 401 n. 7 (5th Cir.
2006) (unpublished opinions issued after January 1,
1996, are not “controlling precedent”). The decision
below thus serves as no obstacle to discretionary fee
awards in future cases, particularly given the factintensive nature of such awards under Hardt.
The purported “conflict” asserted in the Petition is
also shallow and recent. By Petitioner’s own count,
the “split” consists of one First Circuit opinion that is
less than six years old, and the Fifth Circuit’s
unpublished decision in this case. The Petition does
not even identify any court of appeals decision in
tension with Gross, or any criticism of the Fifth
Circuit’s recent decision.
No court has yet acknowledged a split; to the
contrary, the Fifth Circuit expressly distinguished
Gross, explaining that the plaintiff in that case
achieved at least some success on the merits by
demonstrating the defendant’s administrative review
process was fatally flawed. Pet. App. 5a–6a. If the
decision below actually conflicted with Gross, the
lower courts have not yet had an opportunity to
examine that conflict, weigh in for or against the
decision below, or bring the key issues into sharper
focus.
Given the obvious factual differences between the
two cases and their recent vintage, the Petition does
not present the type of clean, well-developed split
calling out for resolution by this Court. Declining
review now will—at a minimum—allow the stakes
and any differences in the courts’ application of Hardt
to mature and inform any review this Court might

27
eventually deem necessary. More likely by far,
however, would be the realization that no outcomedeterminative split or disuniformity exists at all in
this fact-intensive area of ERISA attorney fee law.
Finally, if this Court were to grant certiorari, it
would likely discover that Petitioner’s purported
“victory” before the Fifth Circuit on the standard of
review was not nearly as “significant” as the
Petition—and the Question Presented—claims. See
Pet. i, 8, 12.
The Petition goes to great lengths to cast the en banc
order in this case in the same mold as the remand
orders at issue in Hardt and Gross, asserting that it
granted Petitioner “full judicial review of her claim for
the first time” and “increased the likelihood of a
favorable benefits determination.” Pet. 8–9, 12. But
at oral argument, the Fifth Circuit panel below threw
cold water on any such notion, explaining that the
state of the record in this case rendered the standard
of review effectively irrelevant to Petitioner’s claims.2
As Petitioner conceded at oral argument, judicial
review of an ERISA benefits determination is limited
to the administrative record before the plan
administrator. See Oral Argument at 1:38–1:45; see
also Vega v. Nat’l Life Ins. Servs. Co., 188 F.3d 287,
299–300 (5th Cir. 1999), overruled on other grounds
by Metro. Life Ins. Co. v. Glenn, 554 U.S. 105 (2008).
Indeed, the Fifth Circuit reaffirmed that very
principle in the same en banc opinion remanding

An audio recording of oral argument is available at:
http://www.ca5.uscourts.gov/OralArgRecordings/18/18-20700_85-2019.mp3 (last visited May 13, 2020). Judge Elrod’s en banc
dissent expressed similar concerns regarding the viability of
Petitioner’s claims, even under the standard of review Petitioner
advanced below and now trumpets. See Pet. App. 92a.
2

28
Petitioner’s claims to the district court. See Pet. App.
66a–68a.
But as Petitioner also conceded at oral argument,
much of the medical evidence upon which Petitioner
relied to challenge Humana’s benefits determination
was not a part of the administrative record. See Oral
Argument at 1:38–3:20, 33:42–34:06; see also Pet. App.
31a–33a (granting Humana’s motion to strike
materials “outside the administrative record”). The
administrative record here contains no medical
records or other evidence submitted by Petitioner,
because Petitioner submitted none to the plan
administrator. As a result, the record contains only
those materials upon which Humana relied to support
its benefits determination.
As the Fifth Circuit recognized, that left very little
for the court to review—regardless of the standard of
review to be applied.
Far from constituting a
“significant victory” on the merits, the en banc order
in this case had no effect on the merits of Petitioner’s
claims, given Petitioner’s failure to build a record. If
this Court were to grant certiorari, it would thus
confront a very different question than that described
in the Petition.
IV.

Petitioner’s Request for Attorney’s Fees
Was Properly Denied.

The structure and text of ERISA, as well as the
precedents of this Court, confirm that the Fifth
Circuit properly affirmed the district court’s
discretionary decision to deny Petitioner’s request for
attorney’s fees.
Like many other fee-shifting
provisions, § 1132(g)(1) grants discretion to district
judges to award attorney’s fees based on the facts of
the particular case. But it does not require fee awards,
in contrast to its neighboring provision in subsection
(g)(2). Nothing in the structure or text of § 1132(g)(1)

29
supports Petitioner’s contention that a party is
“entitled” to fees any time it obtains a “remand,” or
achieves some other “legal victory.” Pet. 16–17.
This Court examined the scope of this discretion in
Hardt, holding that a court must first determine that
it “can fairly call the outcome of the litigation some
success on the merits” of a party’s claims before
awarding fees under § 1132(g)(1). 560 U.S. at 255.
Both the Fifth Circuit and the district court properly
concluded that Petitioner cannot satisfy that standard
in this case, because she did not achieve any success
on the merits of her claims against Humana. Indeed,
the
Petition
essentially
admits as
much,
acknowledging that “[i]n the end, the change in the
standard of review was not deemed to make a
difference in the outcome of the benefits claim.” Pet.
17.
Petitioner asserts that she is nonetheless entitled to
a fee award because she obtained a change in the
standard of review applied by the Fifth Circuit—even
if that change was not spurred by Humana’s actions
and made no difference in her particular case. Ibid.
That argument finds no support in this Court’s
precedent.
In both Hardt and Ruckelshaus, this Court
emphasized that the starting point in any discussion
of fee-shifting is “the bedrock principle known as the
‘American Rule’: Each litigant pays his own attorney’s
fees, win or lose, unless a statute or contract provides
otherwise.” Hardt, 560 U.S. at 252–53; see also
Ruckelshaus, 463 U.S. at 683–84.
Fee-shifting
statutes like the one at issue in this case may
“deviat[e]” from that Rule, but they do not completely
“abandon” it. Hardt, 560 U.S. at 254–55. Rather, “a
fees claimant must show some degree of success on the
merits before a court may award attorney’s fees under

30
§ 1132(g)(1).” Id. at 255. Otherwise, “a party who
wrongly charges someone with violations of the law
[would] be able to force the defendant to pay the costs
of the wholly unsuccessful suit against it.”
Ruckelshaus, 463 U.S. at 685.
In this case, Petitioner charged Humana with
wrongfully denying medical benefits under ERISA,
but failed at every turn to demonstrate that Humana
violated the law. In multiple rounds of briefing,
Petitioner failed to persuade any court that Humana
had “failed to comply with ERISA guidelines,” or
based its benefits determination on “incomplete
information,” or provided Petitioner with anything
less than the “full and fair review” to which she was
entitled. Cf. Hardt, 560 U.S. at 247–48, 255–56.
As both the Fifth Circuit and the district court
properly recognized, Petitioner never demonstrated
any merit to her claims that Humana wrongfully
denied medical benefits in violation of ERISA.
Accordingly, under this Court’s clear precedent,
Petitioner was not entitled to fee-shifting under
§ 1132(g)(1).
CONCLUSION
The petition for writ of certiorari should be denied.

31
Respectfully submitted,
CARLOS R. SOLTERO
SOLTERO SAPIRE
MURRELL PLLC
7320 N. MoPac Expy.
Suite 309
Austin, TX 78731
RACHAEL K. PADGETT
MITCHELL ║ WILLIAMS
500 W. 5th St.
Suite 1150
Austin, TX 78701

BENJAMIN BEATON
Counsel of Record
SCOTT W. COYLE
G. LUKE BURTON
SQUIRE PATTON BOGGS
(US) LLP
221 E. Fourth St.
Suite 1900
Cincinnati, OH 45202
(513) 361-1200
benjamin.beaton@squirepb.com

